 Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




External Quality Review of Dialysis Facilities

           Two Promising Approaches




                    JUNE GIBBS BROWN
                    Inspector General

                        JUNE 2000
                       OEI-01-00051
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                             Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston regional office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General and Joyce M. Greenleaf, M.B.A., Assistant Regional Inspector
General. Russell W. Hereford, Ph.D., also contributed to this report. Principal OEI staff
included:

BOSTON                                                      HEADQUARTERS

Aimee L. Kasenga, Program Analyst                  Bambi D. Straw, Program Specialist
Lynne G. Dugan, Program Analyst


            To obtain copies of this report, please call the Boston Regional Office at 617-565-1050.
                Reports are also available on the World Wide Web at our home page address:

                                       http://www.dhhs.gov/progorg/oei
                       EXECUTIVE                       SUMMARY

PURPOSE

         To describe two promising approaches to hold dialysis facilities more fully accountable for
         their quality of care.

BACKGROUND

Importance of External Quality Review

         Case files, performance data, and marketplace realities underscore the importance of
         external quality review for dialysis facilities. Case files reveal numerous instances of poor
         care. In one instance we found that a patient received a drug overdose that resulted in
         prolonged bleeding and subsequent hospitalization. Performance data collected from
         dialysis facilities reveal that a substantial portion of patients do not achieve the outcomes
         recommended by clinical practice guidelines. Similarly, scientific studies suggest
         widespread variations in the quality of care patients receive. Of particular note is one that
         revealed higher mortality rates at facilities providing lower doses of dialysis. Finally,
         marketplace pressures triggered by growth, consolidation, competition, and concerns
         about cost have caused service disruptions that can and have jeopardized patient care.

External Review Bodies

         The Health Care Financing Administration (HCFA) relies upon two major entities to
         conduct such external reviews: the End-Stage Renal Disease (ESRD) Networks
         established under the Social Security Act and the State survey agencies. HCFA contracts
         with the 18 Network organizations, which are governed primarily by renal professionals
         associated with facilities in the Network’s region, to perform multiple functions, mostly
         oriented around collegial efforts to promote improvements in the quality of care, and to
         respond to complaints lodged by patients, facility staff, or others. HCFA funds the State
         agencies, typically within departments of public health, to perform a more regulatory role:
         to conduct on-site Medicare certification surveys of facilities and to investigate
         complaints, both in accordance with Medicare Conditions for Coverage for dialysis
         facilities.

Our Companion Report

         In our companion report, External Quality Review of Dialysis Facilities: A Call for
         Greater Accountability, we identified major shortcomings in the external quality review
         system upon which HCFA relies. We indicated that it was overly collegial in nature, that
         it reflected little collaboration between the Networks and the State agencies, and that in
         many respects it lacked accountability. One of our major recommendations to HCFA was

External Review: Two Promising Approaches          1                            OEI-01-99-00051
         to hold dialysis facilities more fully accountable for the quality of care they provide. We
         elaborated on steps that could be taken toward that end by (1) revising the Medicare
         Conditions for Coverage, (2) using facility-specific performance measures both to help
         facilities improve the quality of care and to ensure that they meet minimum standards, (3)
         enhancing the role of Medicare certification surveys conducted by the State agencies, and
         (4) facilitating the development of publicly accountable mechanisms for identifying
         medical injuries.

This Report

         During the course of our inquiry into the external review system, we learned of two
         initiatives that are particularly instructive to how facilities can be held more fully
         accountable. One was a State-initiated effort intended to revitalize the on-site survey
         process through issuing tougher standards, conducting more frequent surveys, and
         developing close collaboration between the State survey agency and the Network. The
         other was a Network-initiated effort to develop facility-specific performance measures
         and to apply them in ways that both foster improvement for all facilities and target
         corrective interventions for poorly performing facilities. Because these initiatives are so
         pertinent to our recommendations, we devote this report to describing them.

INITIATIVES

Initiative 1. Collaborative enforcement of more stringent State standards.

         In 1995, in the aftermath of an outbreak of hepatitis B in a Houston dialysis facility, the
         Texas legislature passed a law calling for the licensure of all dialysis facilities in the State.
         This in itself was a step that many States had previously taken. What distinguished the
         Texas action was that it involved developing more rigorous standards, close collaboration
         of the Texas Network and the State survey agency, and additional State funding.

         Additional minimum standards. The Texas Department of Health (the State survey
         agency), with input from the Texas Network’s medical review board, established minimum
         standards for facilities that exceed the Medicare Conditions for Coverage. The standards
         call for facilities to report adverse events, maintain minimum staffing ratios, and provide
         formal training to all technicians.

         Required reporting on a set of performance measures. Texas licensure law requires
         facilities to report annually on a set of clinical performance measures. The Network and
         the State agency both review the performance measures.

         More frequent on-site surveys. In the first year of operation (1996/97), the State
         surveyed all 237 dialysis facilities in the State. In each of the subsequent two years, it has
         surveyed about one-half of all facilities. By contrast, only about 17 percent of dialysis
         facilities in the country received a Medicare survey in 1998.


External Review: Two Promising Approaches            2                              OEI-01-99-00051
         Ongoing and pervasive Network-State agency collaboration. The Network medical
         review board serves as a source of clinical expertise that contributes to the State agency’s
         enforcement efforts. It advises on how the State should address problems concerning
         clinical outcomes that the surveyors come across during their site visits. It helps monitor
         facilities put on corrective action plans by the State.

Initiative 2. Use of facility-specific performance measures

         The Renal Network, covering Indiana, Kentucky, Ohio, and Illinois, uses facility-specific
         performance data in a balanced fashion: to foster improvements in the overall level of care
         as well as to identify poor performers for further review. This Network, which has the
         largest number of patients of the 18 Networks, conducts this initiative without additional
         Federal funds.

         Electronic data system. The Network developed software to track patients and their
         care. Facilities use the software to submit data electronically to the Network on multiple
         clinical performance measures, throughout the year on all dialysis patients.

         Facility-specific and physician-specific report cards. The Network disseminates
         confidential, facility-specific performance reports three times a year to all facilities in its
         region. The report compares the performance of an individual facility to its own past
         performance as well as to its peers. The Network also disseminates confidential
         physician-specific reports three times a year to all physicians, which compares their
         performance to their peers.

         Targeted interventions of poor performers. The Network analyzes the facility-specific
         performance data to identify particular facilities as well as corporate entities in need of
         interventions.

CONCLUSION

         Better collaboration between State survey agencies and Networks and better use of
         facility-specific performance measures are two important paths to improve the oversight of
         dialysis facilities. These two initiatives demonstrate what can be accomplished given
         innovative leadership and adequate resources. In both cases, the Networks play central
         roles promoting continuous quality improvement and enforcing minimum standards of
         care. Although we did not evaluate the results achieved by each, we find both initiatives
         to be promising enough in their conception and early implementation to warrant careful
         consideration by other Networks and States, and by HCFA, as it seeks to develop
         effective mechanisms for holding facilities more fully accountable for the quality of care
         they provide.




External Review: Two Promising Approaches            3                              OEI-01-99-00051
COMMENTS

         Within the Department of Health and Human Services, we received comments from
         HCFA. We also solicited and received comments from the following external parties: the
         Forum of End Stage Renal Disease Networks, the Association of Health Facility Survey
         Agencies, and the American Association of Kidney Patients. We include the detailed text
         of all these comments and our responses to them in the our report, External Quality
         Review of Dialysis Facilities: A Call for Greater Accountability (OEI-01-99-00050).




External Review: Two Promising Approaches       4                           OEI-01-99-00051
                        TABLE                        OF             CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


PRIMER ON DIALYSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


INITIATIVES


          Collaborative enforcement of more stringent State standards. . . . . . . . . . . . . . . . . . . . . 10


          Use of facility-specific performance measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


APPENDICES


          Appendix A: Facility-specific report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


          Appendix B: Physician-specific report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


          Appendix C: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22





External Review: Two Promising Approaches                       5                                     OEI-01-99-00051
                                   INTRODUCTION

PURPOSE

         To describe two promising approaches to hold dialysis facilities more fully accountable for
         their quality of care.

BACKGROUND

Importance of External Quality Review

         About 3,200 dialysis facilities provide ongoing, life-sustaining dialysis treatments to about
         230,000 patients. Many of these patients are suffering from other complicated diseases
         such as diabetes and hypertension, and nearly all of them are Medicare beneficiaries. To
         foster improved care and minimize risks to patients, dialysis facilities conduct their own
         internal monitoring efforts. External review provides a vital additional safeguard.

         Case files, performance data, and marketplace realities underscore the importance of
         external review. Case files reveal numerous instances of poor care. In one instance we
         found that a patient received a drug overdose that resulted in prolonged bleeding and
         subsequent hospitalization. Performance data collected from dialysis facilities reveal that a
         substantial portion of patients do not achieve the outcomes recommended by clinical
         practice guidelines. Similarly, scientific studies suggest widespread variations in the
         quality of care patients receive. Of particular note is one that revealed higher mortality
         rates at facilities providing lower doses of dialysis. Finally, marketplace pressures
         triggered by growth, consolidation, competition, and concerns about cost have caused
         service disruptions that can and have jeopardized patient care. (See our companion
         report, External Quality Review of Dialysis Facilities: A Call for Greater
         Accountability.)

HCFA’s Oversight through Networks and State survey agencies

         The Health Care Financing Administration (HCFA) is responsible for ensuring that all
         beneficiaries who undergo dialysis treatment receive proper care in dialysis facilities.
         HCFA contracts with two groups, the End-Stage Renal Disease (ESRD) Networks1 and
         the State survey agencies, to oversee the quality of care that dialysis facilities provide.
         HCFA requires the 18 regional Networks to collect data from facilities, conduct annual
         quality improvement projects, and evaluate and resolve complaints. HCFA contracts with
         the State agencies, typically within departments of public health, to conduct on-site
         Medicare certification surveys of facilities and to investigate complaints, both in
         accordance with Medicare Conditions for Coverage for dialysis facilities.



External Review: Two Promising Approaches          6                            OEI-01-99-00051
Medicare Coverage of ESRD

         In 1972, Medicare began providing coverage to individuals with ESRD, or permanent
         kidney failure, making it the only entitlement criteria for Medicare based solely on a
         disease category.2 Medicare covers all treatment methods for patients: hemodialysis,
         peritoneal dialysis, and renal transplants. Patients receiving hemodialysis, the most
         common method, typically receive treatment in outpatient facilities three times a week.
         Peritoneal patients typically perform daily treatments at home and rely on outpatient
         facilities for ongoing support. (See Primer on Dialysis.)

Our Inquiry

         In our companion report, External Quality Review of Dialysis Facilities: A Call for
         Greater Accountability, we identified major shortcomings in the external quality review
         system that HCFA relies upon. We indicated that it was overly collegial in nature, that it
         reflected little collaboration between the Networks and the State agencies, and that in
         many respects it lacked accountability. One of our major recommendations to HCFA was
         to hold dialysis facilities more fully accountable for the quality of care they provide. We
         elaborated on steps that could be taken toward that end by (1) revising the Medicare
         Conditions for Coverage, (2) using facility-specific performance measures both to help
         facilities improve the quality of care and to ensure that they meet minimum standards, (3)
         enhancing the role of Medicare certification survey conducted by the State agencies, and
         (4) facilitating the development of publicly accountable mechanisms for identifying
         medical injuries.

         During the course of our inquiry into the external review system, we learned of two
         initiatives that are particularly instructive to how facilities can be held more fully
         accountable. One was a State-initiated effort intended to revitalize the on-site survey
         process through issuing tougher standards, conducting more frequent surveys, and
         developing close collaboration between the State survey agency and the Network. The
         other was a Network-initiated effort to develop facility-specific performance measures
         and to apply them in ways that both foster improvement for all facilities and target
         corrective interventions for poorly performing facilities. Because these initiatives are so
         pertinent to our recommendations, we devote this report to explain them further.

         The promising approaches presented here appear to have wider applicability, although we
         recognize that what works well in one part of the country may not necessarily work well
         elsewhere. We also recognize that our highlighting of these two approaches does not
         necessarily mean that other important initiatives are not taking place. In fact, in our
         companion report we reference a number of such initiatives.




External Review: Two Promising Approaches          7                            OEI-01-99-00051
         Our understanding of the two promising approaches addressed in this report draws on site
         visits, interviews with State surveyors, Network staff, HCFA personnel, and renal
         professionals, and a review of relevant documents.

         We conducted this study in accordance with the Quality Standards for Inspections issued
         by the President’s Council on Integrity and Efficiency.




External Review: Two Promising Approaches        8                          OEI-01-99-00051
                                  PRIMER ON DIALYSIS

TYPES OF TREATMENT

Dialysis is the process of removing toxins from the body by diffusion across a semipermeable membrane, thereby
compensating for kidney failure. There are two types of dialysis:

         Hemodialysis. Removal of toxins directly from the patient’s blood stream, requiring direct access to the
         bloodstream. The patient’s blood is cycled through an artificial kidney, an external machine, that
         removes the toxins and excess fluids from the blood. The artificial kidney machine uses a semipermeable
         membrane, called a hemodialyzer, to filter out the toxins from the blood.

         Peritoneal dialysis. Utilizes the patient’s natural peritoneal membrane, located in the abdominal cavity,
         to remove toxins and excess fluids.

COMMONLY USED PERFORMANCE MEASURES

Adequacy. Refers to the amount of toxins, such as urea and creatinine, removed from the body during dialysis.
<	
< Urea reduction ratio (URR) and Kt/V. Two measures used to measure adequacy in hemodialysis patients
   based on the removal of urea. The URR is a function of the amount of urea removed during dialysis, as
   determined by the pre- and post-dialysis blood urea nitrogen levels. The Kt/V is a function of the amount of
   urea removed multiplied by the time on dialysis, divided by the volume of urea distribution, or approximately
   the amount of water in the body. The National Kidney Foundation’s Dialysis Outcomes Quality Initiative
   (DOQI) practice guidelines recommend a Kt/V of at least 1.2, or an average URR of at least 65 percent for the
   minimum delivered dose of hemodialysis.
< Creatinine clearance and Kt/Vurea. Two measures used to measure adequacy in peritoneal patients. Creatine
<	
   clearance measures the removal of creatine and Kt/Vurea measures the removal of urea. DOQI recommends a
   weekly dose of continuous ambulatory peritoneal dialysis of at least 2.0 per week and a creatine clearance of at
   least 60L/week/1.73 m2.

Anemia management. Anemia, or inadequate red blood cells, is a common concern among dialysis patients.
<	
< Hematocrit and hemoglobin. Two measures of the severity of anemia. Hematocrit measures the ratio of red
   blood cells to the plasma volume, and hemoglobin measures the amount of a specific protein in red blood cells
   that carries oxygen. DOQI recommends a target range of 33 percent to 36 percent for hematocrit and between
   11 g/dL to 12 g/dL for hemoglobin.
< Ferritin level and transferrin saturation (TSAT). Two measures used to monitor the level of iron. Ferritin
<	
   is a measure of the level of iron stored within the body and TSAT is a measure of iron immediately available to
   produce red blood cells. DOQI recommends a ferritin level of $100 ng/mL and a TSAT $20 percent.

Vascular access. The point of direct access to the blood stream for hemodialysis. There are three types:
< Catheter. A tube is placed in a blood vessel, primarily used for temporary access to the blood stream.
< Native arteriovenous fistula. A patient’s own artery and vein are joined surgically to allow arterial blood to
<	
   flow through a vein, usually placed in the forearm and takes several weeks to mature. DOQI guidelines
   recommend that primary fistulas be placed in at least 50 percent of new patients.
< Synthetic arteriovenous graft. A synthetic blood vessel is used to surgically join the patient’s artery and vein,
<	
   usually placed in the forearm and takes several weeks to mature.

Nutrition. Inadequate nutrition is a common concern among dialysis patients.
< Serum albumin level. A measure of the level of proteins in the blood.


External Review: Two Promising Approaches                9                                OEI-01-99-00051
                                        INITIATIVES

Initiative 1. Collaborative enforcement of more stringent State
standards.

         Through its licensure program, the Texas Department of Health has increased its
         regulatory presence by requiring facilities to meet standards that exceed Medicare’s and by
         enforcing them through frequent on-site surveys. The program has also established a
         formal working relationship between the Department (the State survey agency) and the
         End-Stage Renal Network of Texas, Inc. (Network #14). This collaboration is facilitated
         in part by the fact that the Network covers only the State of Texas, whereas most other
         Networks cover several States.

History of the Texas licensure program

         The Texas initiative to license dialysis facilities grew out of concerns for patient safety
         precipitated by several well- publicized events. In 1994, 14 patients contracted hepatitis B
         in a Houston dialysis facility that failed to take the appropriate precautions to prevent the
         spread of infectious diseases. As a result, the city of Houston’s Health Department alerted
         the State agency. Upon its investigation, the State found the facility out of compliance
         with several Medicare Conditions for Coverage related to infection control and it placed
         the facility on a 23-day Medicare termination track. Shortly thereafter another complaint
         investigation at the same facility identified continuing problems with infection control and
         the facility was placed on a second 23-day termination track. The facility received no
         monetary or administrative penalty such as exclusion from the Medicare program for the
         harm it caused patients. The lack of any substantiative corrective action led concerns
         about the ability of the Federal oversight system to protect patients from harm in dialysis
         facilities.

         Thus, the State legislature in 1995 enacted a law requiring all dialysis facilities to be
         licensed in order to operate in the State.3 The legislation established a formal relationship
         between the Department of Health and the Network’s medical review board, which
         comprises local renal professionals with clinical expertise as well as patient
         representatives.4

         The State legislature established licensing fees for 250 dialysis facilities in the State.
         Facilities pay an initial licensing fee of $2,000 and an annual licensing fee that ranges from
         $1,500 - $2,500 depending on the number of dialysis treatments at the facility. Licensure
         fees are not directly funneled to the program. Fees go into the State general fund and
         program funding is appropriated every two years. Recently, due to budget cuts to the
         Department of Health as a whole, the future operations of the program may be reduced.5



External Review: Two Promising Approaches          10                            OEI-01-99-00051
Texas standards for dialysis facilities

         The Texas Department of Health, with input from the Network’s medical review board

         and the renal community, developed and implemented minimum standards for dialysis

         facilities. The licensure standards are similar to the Medicare Conditions for Coverage but

         also include additional standards. One of the more significant standards under Texas

         licensure is the requirement for facilities to conduct their own internal quality assurance

         programs led by the facility’s governing body. This program must include data analysis

         and implementation of their own improvement plans. Other Texas standards that exceed

         Medicare Conditions include annual reporting on a set of standardized performance

         measures, required staffing ratios, required training of technicians, and specific

         requirements for water treatment.


         Another important

         licensure standard is the
                Table 1. Dialysis Facility Accident Reports
         requirement to report

         adverse events. 
           Occurrence               1996-1997        1997-1998       1998-1999*
         Facilities must report all

         events involving a
         Death                          32              28              6
         patient death or
           Hospitalization               275             565            543
         hospitalization,

         conversions of staff or
 Conversions to              10 patients       6 patients     14 patients
                                     hepatitis B+                               1 staff**
         patients to hepatitis B+

         status, fire, or a natural
 Fire                           1               1               3
         disaster. These reports

                                     * As of June 18, 1999
         must be submitted
          ** Staff found to be hepatitis B+ at hire
         within 10 working days
 Source: 1999 ESRD Facility Annual Report, Texas Department of Health
         to the Department of

         Health. The State

         surveyors review the reports and, if warranted, conduct a survey. Since the program

         began, the greatest majority of adverse events reported have been those involving a

         hospitalization. (See table 1.) 


Network-State collaboration around on-site surveys

         The Department of Health enforces its minimum standards for dialysis facilities primarily
         through unannounced on-site surveys. With its additional funds from licensure fees, Texas
         is able to conduct surveys more frequently than the national average. In the first year of
         the program, the State surveyed all of its approximately 250 facilities. Subsequently, the
         State has surveyed about half of all facilities annually.6 By contrast in 1998, only 17
         percent of existing facilities nationwide received a Medicare survey. (See our companion
         study entitled External Quality Review of Dialysis Facilities: A Call for Greater
         Accountability.) Also due to additional funds, Texas has been able to maintain surveyors
         that specialize in surveying dialysis facilities.


External Review: Two Promising Approaches            11                             OEI-01-99-00051
         A unique aspect of the Texas survey process is the involvement of the Network’s medical
         review board. When a surveyor identifies a facility problem that is related or potentially
         related to negative patient
         outcomes, it refers the
                                          Figure 1. Examples of survey deficiencies that led the State
         facility to the medical review
                                          to refer a facility to the Network’s medical review board.
         board for review. The
         medical review board             Facility failure to:
         reviews a short, blinded
         narrative prepared by the        < assess patient status before beginning treatment

         surveyor indicating the          < train and supervise dialysis technicians

                                          < monitor patients during treatment

         reason for the referral,         < provide adequate dialysis

         comparative data on the          < provide effective treatment of anemia

         facility’s performance, and      < ensure water is safe for dialysis

         the facility’s history. Based    < provide a sanitary environment for dialysis

         on its review, the medical       < provide adequate infection control practices

                                          < provide sufficient qualified staff

         review board makes
         recommendations to the
         State for the appropriate
         corrective action plan the
         State should impose. The State made 33 referrals to the Network in the first year of the
         program, 11 in the second year, and 21 in the third year. (See figure 1.)

         The State usually agrees with the Network’s recommendations and informs the facility of
         the corrective action(s) the State is requiring the facility to take.7 The State can require a
         facility to develop and implement one of three levels of corrective action plans. A level
         one corrective action plan involves little monitoring by the State and none by the
         Network. Level two and level three plans involve more monitoring that can include the
         appointment of an on-site monitor or manager, subject to the approval of the State and the
         medical review board. In addition, the State can take enforcement actions against a
         facility that range from fines to revoking licenses.

         Once the State requires a facility to develop and implement a corrective action plan, the
         medical review board continues to play an important role. The medical review board, at
         the request of the facility, can provide important technical assistance on corrective action
         plans. For more serious problems the medical review board and the State jointly monitor
         the facility for up to 6 months. During this time, the medical review board and the State
         review key facility documents, including policies, educational programs for staff, practice
         audits, and quality improvement meetings.

         If the State requires the facility to appoint a monitor, the medical review board and the
         State receive regular updates directly from him or her. When the medical review board
         determines that the facility has made sufficient progress towards correcting the problem, it
         recommends to the State that the facility be released from its monitoring requirements.
         The medical review board can also recommends follow-up surveys. The State reviews the
         medical review board’s recommendation and makes the final decision.

External Review: Two Promising Approaches         12                             OEI-01-99-00051
         Additional collaboration sometimes occurs in complaint investigations when the State
         finds it needs some additional clinical expertise. The State may consult the Network when
         it receives a complaint that requires the expertise of the medical review board such as
         complaints involving questionable medical practice and patient behavior. The State
         surveyors may consult with the Network staff or its medical review board prior to going
         on-site and sometimes invite Network staff or medical review board members to assist on
         the actual survey depending on the complexity of the issue. Once the surveyors perform a
         complaint survey, the process is similar to the one described above for any survey process.
         In addition, the Network can refer complaints to the State, which most other Networks
         routinely do as well.

         The renal professionals we interviewed in Texas felt that an increase in on-site surveys and
         the collaboration between the State and the Network in monitoring facilities has resulted
         in greater accountability of facilities. Surveyors and renal professionals agreed the
         frequent surveys help enforce minimum standards. Surveyors also indicated that they now
         have greater credibility when they are on-site because they are backed by the Network’s
         medical review board that has clinical expertise. As a result, the State surveyors are able
         to more easily cite facilities for quality of care problems. Facility staff also reported that
         surveys now are more valuable and substantive due to the new standards.

Network-State collaboration around standardized performance measures

         Another major aspect of the Texas licensure program involves the sharing of standardized
         performance measures between the State and the Network — a practice that rarely occurs
         in other States. Beginning in 1997, the State contracted with the Network to collect a
         core set of performance measures on a sample of 30 patients at each facility from the last
         quarter of 1996. Under its contract with the State, the Network collects data on the
         adequacy of dialysis (urea reduction ratio and Kt/V), the management of anemia
         (hematocrit level), and the rate of peritonitis episodes (a bacterial infection that commonly
         afflicts patients undergoing peritoneal dialysis). The Network also collects on its own
         patient demographic information and mortality data. Facilities report the data to the
         Network either by filling out paper forms or by saving the data on a computer diskette for
         electronic transmission. Most facilities use the paper method.

         The Network uses the data it collects on behalf of the State to produce annual
         facility-specific reports called Quality of Care Indicator Reports. These reports compare
         a facility’s performance to itself over time and to other facilities in the State on each
         performance measure required by the State. In addition, national comparative data and
         clinical guidelines are included where available. The Network uses the additional data it
         collects on its own to produce annual facility-specific reports entitled, Facility Trends and
         Profiles. These reports compare a facility’s mortality rate and patient demographic to
         other facilities in the State. The Network disseminates both reports to the individual
         facilities and to the State. The facility-specific reports are not released to the public; the
         data are protected under the licensure law. However, some aggregate information is


External Review: Two Promising Approaches          13                            OEI-01-99-00051
         available to the public. The Network also uses the data to identify future quality
         improvement activities.

         Surveyors use both reports as they conduct surveys. Prior to going on site, surveyors
         review a facility’s reports to note areas that warrant further probing. While on site,
         surveyors carefully walk through the reports with the head nursing staff and explain how
         to interpret the information. Also, surveyors probe areas of poor performance. If a
         facility cannot provide an adequate explanation for its poor performance, surveyors will
         discuss possible improvement activities. Because licensure standards require facilities to
         conduct their own quality assurance program, surveyors will cite a facility if they
         determine that the facility was not making efforts to conduct its own internal monitoring
         of the performance measures and take corrective action as needed.

         Texas licensure also requires the Network’s medical review board to review the
         facility-specific reports annually and to refer poor performers to the State. To meet this
         task, the medical review board developed criteria to identify facilities for a referral. For
         1999, the medical review board used the following criteria: (1) any two indicators that
         were one standard deviation below the State mean, (2) any one indicator that was two
         standard deviations below the State mean, or (3) any statistically significant, high 3-year
         aggregate standard mortality rate. Facilities referred by the Network receive a high
         priority for a survey.8 The Network referred 39 facilities in 1999, 31 facilities in 1998, and
         47 facilities in 1997.

         Network staff and medical review board members stated that the data were helpful for
         their quality improvement activities. Without a licensure law requiring facilities to report
         and ensuring confidentiality, as well as providing additional funding, the Network felt it
         would be difficult for them to collect and analyze facility-specific data of this scale.
         Facility staff we spoke with found the facility-specific report helpful for internal quality
         improvement activities. Facilities also reported that without the Network data many
         would not have comparative information on their performance. The performance data
         suggest that improvements have been made. The percent of patients receiving adequate
         dialysis, as measured by a urea reduction ratio >65 percent, has increased from 77.5
         percent in 1996 to 84 percent in 1997.9




External Review: Two Promising Approaches         14                            OEI-01-99-00051
Initiative 2. Use of facility-specific performance measures.

         The Renal Network, Inc. collects and uses facility-specific performance data involving all
         patients at all facilities in its region. It uses these data in a balanced fashion: to foster
         improvements in the overall level of care as well as to identify poor performers for further
         review.

         The Renal Network is a consolidation of two Networks. In 1996, HCFA awarded the
         Tri-State Renal Network (#9) covering the State of Indiana, Kentucky, and Ohio the
         contract for Network #10 covering the State of Illinois to become The Renal Network,
         Inc. (#9/10). The Network covers over 390 facilities that serve an estimated 28,000
         patients. Based on the number of patients undergoing treatment in the Network, it is the
         largest of the 18 Networks. The Network has not received additional funds from HCFA
         to perform this project.10

Collecting performance measures

         The Network collects performance measures from facilities on all their patients. The
         selected performance measures cover
         the following treatment areas:
         adequacy of dialysis, anemia               Figure 2. Performance Measures Collected by
                                                    The Renal Network
         management, and nutrition. The
         Network collects the measures at           For all hemodialysis patients for five months each
         various times throughout the year          year, the Network collects: urea reduction ratio,
         depending on the measure itself and        Kt/V, hematocrit, ferritin levels, transferrin
         the treatment modality of the patient.     saturation, and type of vascular access, serum
         The Network also routinely collects        albumin.
         and updates patient demographic and        For all peritoneal patients on six months each year,
         medical history information, such as a     the Network collects: Kt/V, serum creatinine,
         patient’s physician, type of vascular      hemoglobin, ferritin levels, transferrin saturation,
         access, progress towards a transplant,     blood pressure, and serum albumin.
         and mortality. The Network’s
                                                    For all patients the Network updates monthly: date
         patient-specific data provides greater
                                                    of birth, sex, race, date of first dialysis, primary
         analytical possibilities. On facilities    diagnosis, co-morbidities, insurer, physician, type of
         themselves, the Network collects key       dialysis, transplant status, and mortality data.
         descriptive information such as
         location, number of shifts, chain
         affiliation, and names of key personnel. (See figure 2.)

         To facilitate the collection of performance measures, the Network developed, and has
         since revised, a software program for facilities to enter and electronically submit their data
         to the Network on a computer diskette. The Network downloads the data from the
         diskettes into its own database for analysis. This type of electronic submission greatly
         reduces the costs and errors associated with data entry and allows for more timely


External Review: Two Promising Approaches            15                               OEI-01-99-00051
         analysis. The data are only about three months old when the Network feeds it back to
         facilities.

Using performance measures to improve the quality of care

         Facility-specific reports. Since 1996, the Network has created and disseminated
         facility-specific performance reports to all facilities. Facilities receive their own individual
         Clinical Performance Measures Feedback Report three times a year. (See appendix A.)
         The Network’s report is similar in format to HCFA’s national reports on the quality of
         care in dialysis facilities. However, HCFA’s report makes comparisons of performance
         measures at the Network level only and does not provide any information on the
         performance of individual facilities.11 In contrast, the Network’s reports compare an
         individual facility to its own past performance and to other facilities in its region, State,
         and Network on each performance measure.12 The Clinical Performance Measures
         Feedback Report also contains the number of patients, mean, and standard deviation for
         each measure. In addition, the report contains a comparison of a facility’s patient
         demographics compared to the region, State, and Network to help address case mix
         issues.

         The facility’s administrator, medical director, and all attending physicians receive a copy
         of the report. The Network does not routinely share these reports with the State survey
         agencies. However, some State surveyors review a facility’s reports when on site. The
         Network also does not share the facility-specific reports with the public. Instead, it
         releases reports to the public presenting aggregate trends at the State and Network level.

         Since 1991, the Network also has disseminated the Patient Demographic Report. This
         annual report compares a facility’s patient population to its State and Network and
         provides an analysis of facility-specific mortality rates. These reports also are not
         routinely shared with the State and are not disclosed to the public.

         The Network’s data suggest that the percentage of hemodialysis patients with adequate
         dialysis, as measured by a urea reduction ratio of >65 percent, has increased from 71
         percent in 4th quarter 1997 to 76 percent in 4th quarter 1998. Network data also suggest
         that anemia management has improved as measured by higher patient hematocrit levels.
         The percentage of hemodialysis patients with a hematocrit >31 percent has increased from
         72 to 79 percent over the same time period.13 The nurses and technicians we interviewed
         indicated that the facility-specific reports are the most important activity the Network
         performs. Without the Network data, nurses stated they would have no idea how their
         facility’s performance compared to others in the area. These reports were a motivator for
         improvement, according to these nurses. The nurses also stated that the benefits of having
         the reports outweighed the burden on the facility to report the data.

         Physician-specific reports. The Renal Network is the only Network that provides
         physician-specific reports. In 1997, the Network created a Physician Activity Sheet, that
         compares the performance of individual physicians to their peers at the facility, State, and

External Review: Two Promising Approaches           16                             OEI-01-99-00051
         Network level and to clinical guidelines on the performance measures collected by the
         Network. (See appendix B.) The Network disseminates the physician reports three times
         a year. Only individual physicians receive their report unless a physician group requests to
         have an aggregate analysis of its physicians. Physicians are provided the opportunity to
         verify the patients assigned to them.

         The Network’s analysis suggests that physician-specific reports have been influential in
         improving the quality of care. A recent Network survey showed that 55 percent of
         physicians use the reports for internal quality improvement activities and over 40 percent
         review them as part of dialysis facility meetings and/or to assess their overall patient
         population. Another Network analysis showed that even as the patient/physician ratio has
         increased from 45.9 to 51.4 between 1997 and 1998, physician performance has improved.
         Between 1997 and 1998 the percentage of patients with Kt/V $1.2 increased from 77
         percent to 80 percent and the percentage of patients with hematocrits $31 increased from
         71 to 77. The Network concluded that these physician report cards have helped fostered
         improvements by encouraging physicians to better follow clinical guidelines.14

         Identifying topics for improvement activities. The Network also conducts additional
         analyses of the performance measures to identify trends. This helps the Network choose
         topic areas for future improvement activities that will have the greatest impact on
         improving quality. The Network is flexible in the types of analyses it performs. It tries to
         incorporate suggestions from the renal community as well as address timely issues. In the
         past, the Network has conducted special analyses looking at the comparative performance
         of facilities located in metropolitan regions as well as looking at the comparative
         performance of facilities after new patients have been excluded.

Using performance measures to identify poor performers

         Facility profiling tool to identify poor performers. In order to help identify poor
         performers, the Network’s medical review board is developing a new system that profiles
         facilities based on their performance in several categories. The profiling tool uses the
         following categories: complaints, data compliance, mortality, hospitalization, the use of
         catheters, facility-specific core indicators, and participation in Network projects. Each
         category captures a different method of evaluating the quality of care provided at the
         facility. This tool is based on the notions that quality of care cannot always be captured by
         one or even several performance measures, and a facility that provides poor clinical care is
         probably performing poorly on administrative duties as well, which are easier to measure.

         A facility receives a hit for poor performance or non-compliance in each of the categories
         based on the criteria determined by the medical review board. For example, if a facility’s
         urea reduction ratio is two standard deviations below the Network average, it would
         receive one hit. Each hit is multiplied by a weight that is attributed based on its
         correlation to the quality of care in the facility. For instance, a hit for a mortality rate is




External Review: Two Promising Approaches          17                             OEI-01-99-00051
         multiplied by greater weight than a hit for data compliance. The hit multiplied by the
         weight equals the number of points the facility receives. The total sum of a facility’s
         points determines its overall score. In theory, the higher the score, the poorer the
         performance of the facility.

         The Network plots the final scores of all facilities and identifies facilities in the highest
         decile. The Network performs a pattern analysis on the highest tenth decile to determine
         any common factors that might help in conducting interventions, such as whether they are
         all in the same metropolitan area. Once this analysis is complete, the Board determines
         how to proceed with the poor performers. Interventions are specific to the problems and
         facilities involved and can range from off-site assistance to on-site focused reviews.

         The Network recently intervened with a facility identified through this profiling system.
         In this instance, the Network convened an interdisciplinary team to conduct a formal site
         visit of the facility using a protocol developed by the Network. Prior to going on site, the
         group reviewed a sample of patient medical records. While on site, the team conducted
         interviews of the nursing and technical staff, the facility administrator, the medical
         director, and several patients. Based on its findings, the Network required the facility to
         develop and implement an improvement plan, subject to the medical review board’s
         approval, and to submit monthly documentation of its progress. Since that time, the
         Network has been on site to help the facility implement its plan and has seen signs of
         improvement. The team plans to revisit the facility six months after its initial site visit to
         verify its progress.

         Comparative analysis to identify a corporate chain for intervention. Another method
         the Network uses to identify poor performer is comparative analyses. The Network
         reviews the comparative reports it sends to facilities and performs additional analyses as
         necessary to identify facilities that are lagging behind. Recently, the Network analyzed the
         comparative performance of facilities by chain affiliation. The analysis showed that one of
         the three largest corporations in a metropolitan area was lagging significantly behind the
         others on several performance measures. Due to resource constraints, it was impossible
         for the Network to work with each individual facility; instead, it intervened at the
         corporate level. The Network shared the data with the regional corporate leaders and
         they agreed to convene their medical directors together for a formal session with the
         Network. At this session, the Network presented its analysis and provided the medical
         directors with information on how to improve the quality of care at their facilities. The
         Network has since seen an improvement in the chain's performance. The Network
         indicated to us that without the quantitative evidence it would have been difficult to get
         the attention and subsequent support of the corporation for quality improvement activities.




External Review: Two Promising Approaches          18                            OEI-01-99-00051
                                       CONCLUSION

         Better collaboration between State survey agencies and Networks and better use of
         facility-specific standardized performance data are two keys to improving the oversight of
         dialysis facilities. In our companion report, External Quality Review of Dialysis
         Facilities: A Call for Greater Accountability, we set forth recommendations calling for
         national reforms in these directions. In this report, we focused on two local initiatives that
         provide models for such reforms and that warrant careful consideration in that context.

         The Texas initiative occurred because the State legislature became concerned about the
         adequacy of dialysis care after some highly publicized reports of poor care. The
         legislature’s interventions led to a significant change in the thrust of external oversight
         conducted on dialysis facilities in the State. It shifted what was a highly collegial approach
         to oversight to one that was more balanced between collegial and regulatory approaches.
         It also brought clarity to the relationship between the Network and State by establishing
         clear operational parameters. The infusion of State funds and the establishment of new
         standards for facilities were all keys to its success.

         The Renal Network’s initiative occurred because its staff and board members sought, with
         some sense of urgency, to use performance data to hold facilities more accountable for
         their performance. By collecting a broad range of facility-specific measures from 100
         percent of the patients at those facilities, it set a foundation for using performance data as
         a rigorous tool for oversight. It emphasized the use of such data to improve overall
         professional care processes and outcomes, but also showed a readiness to use them to
         target and correct poorly performing facilities. This effort also illustrates the potential that
         such data can have in profiling the performance of individual physicians.

         These two initiatives demonstrate what Networks and States can accomplish given
         innovative leadership and adequate resources. In both cases, the Networks play central
         roles promoting continuous quality improvement and enforcing minimum standards of
         care. Although we did not evaluate the results achieved by each, we find both initiatives
         to be promising enough in their conception and early implementation to warrant careful
         consideration by other Networks and States, and by HCFA, as HCFA seeks to develop
         effective mechanisms for holding facilities more fully accountable for the quality of care
         they provide.




External Review: Two Promising Approaches          19                             OEI-01-99-00051
                                                                            APPENDIX A



                         An Excerpt from a Facility-Specific Report

         The following are highlights of the information provided in The Renal Network’s Clinical
         Performance Measures Feedback Report for in-center hemodialysis patients for 4th
         quarter 1998. The complete report also contains information on Kt/V, hematocrit,
         hemoglobin, Epoetin dosage, ferritin levels, transferrin saturation, and serum albumin.




External Review: Two Promising Approaches       20                           OEI-01-99-00051
                                                                            APPENDIX B


                         An Excerpt from a Physician-Specific Report

         The following are highlights of the information provided in The Renal Network’s
         Physician Activity Report for in-center, hemodialysis patients for November 1999. The
         complete report also contains information on urea reduction ratio, Kt/V, transferrin
         saturation, and serum albumin.




  Your % pts meeting the criteria
      during July 1999 is 0.19
  std dev below the Network rate




  Your % pts meeting the criteria
      during July 1999 is 0.22
  std dev above the Network rate




External Review: Two Promising Approaches       21                          OEI-01-99-00051
                                                                               APPENDIX C


                                            ENDNOTES


1. The ESRD Networks, established in 1976, are HCFA’s main contractors for monitoring
dialysis facilities. The main mission of the Networks as set out in the Statute is to ensure
“effective and efficient administration of the benefits” provided under the ESRD program.
Section 1881(c) of the Social Security Act.

2. In order to qualify, individuals must be fully insured under Social Security or be a dependent of
someone who is. In 1996, about 8 percent of individuals with ESRD who needed treatment did
not qualify for Medicare coverage. U.S. House of Representatives, Committee on Ways and
Means, 1998 Green Book, (Washington, DC: Government Printing Office), 162.

3. Texas Health and Safety Code, Chapter 251, End-Stage Renal Disease Facilities. In 1996, the
department implemented the final rules and standards of the program; these were subsequently
revised in 1999.

4. Health Facility Licensing Division, Title 25 Texas Administrative Code, Chapter 117 End-
Stage Renal Disease Facilities Licensing Rules, effective April 11, 1999.

5. Due to current budget constraints, the Texas Department of Health reduced the number of
full-time surveyors. This reduction in staff will likely have an impact on the frequency of surveys.

6. In the first year, (9/l/96 to 10/30/97) the State surveyed all 237 facilities. In the second year
(11/l/97 to 9/l/98) the State conducted about 109 surveys and in the third year (9/l/98 to 8/30/99)
the State conducted about 137 surveys.

7. The State and Network each maintain their independent authorities. If the State disagrees with
the medical review board’s recommendation it can take its own course of action. Similarly, the
Network can require facilities under its own authority to develop and implement corrective action
plans if it disagrees with the State.

8. The current priority list for State surveys is as follows: (1) complaints, (2) initial surveys, (3)
expansions -- facilities adding additional dialysis stations, (4) facilities referred to the Network’s
medical review board the previous year, (5) referrals from the medical review board based on the
performance data, (6) facilities chosen by surveyors, and (7) routine resurveys -- facilities that
have gone the longest without a survey.

9. 1998 Quality of Care Indicators Report, Texas Department of Health ESRD Licensing
Program, July 1998, p 4.

10. Under statute Networks are supposed to receive 50 cents per dialysis treatment in their
region to fund their activities. Social Security Act 1881(b).


External Review: Two Promising Approaches        22                             OEI-01-99-00051
                                                                            APPENDIX C


11. HCFA does not collect a large enough sample to analyze the data at the facility level.

12. “Region” for this report is defined as a health service region.

13. The Renal Network’s, Inc., 1998 Annual Report.

14. Emil P. Paganini et. al., "Physician Activity Reporting: Is it Worthwhile?" American Society
of Nephrology 1999 Program Abstracts On-line from 32nd Annual Meeting,
http://www.asn-online.coni/ accessed November 23, 1999.




External Review: Two Promising Approaches        23                          OEI-01-99-00051
